No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
TRAVON NIKEITH JOHNSON,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A

Judgment and Opinion of Fifth Circuit

Appendix B

Judgment and Sentence of the United States District Court for the Northern
District of Texas

Appendix C

Judgement Revoking Supervised Release

APPENDIX A

Case: 19-10517

Document: 00515321148

Page: 1

Date Filed: 02/26/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10517
Summary Calendar

FILED
February 26, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
TRAVON NIKEITH JOHNSON,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:18-CR-117-1
Before WIENER, HAYNES, and COSTA, Circuit Judges.
PER CURIAM: *
Defendant-Appellant Travon Nikeith Johnson appeals his aboveguidelines sentence of 24 months of imprisonment and 30 months of supervised
release that he received on revocation of his initial term of supervised release.
In reaching its decision during the revocation and sentencing hearing, the
district court stated that it considered his criminal history, “his ongoing
activity in assaulting a family member,” and the sentencing factors under

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 19-10517

Document: 00515321148

Page: 2

Date Filed: 02/26/2020

No. 19-10517
18 U.S.C. § 3553(a).

Although the district court initially announced its

sentence before permitting allocution, the court withdrew its sentence after
Johnson objected, heard allocution, then imposed the same sentence.
Johnson raises two issues on appeal. He first contends that the district
court deprived him of a meaningful opportunity to allocute by making its
statements to him that tended to indicate that he had an “uphill battle” in
trying to change the court’s mind.
Plain error review applies because Johnson did nothing to indicate that
he “took exception” to how the district court handled his initial allocution
objection. See United States v. Salinas, 480 F.3d 750, 755-56 (5th Cir. 2007).
There was no “clear or obvious” error. Puckett v. United States, 556 U.S. 129,
135 (2009). The district court was permitted to state its intentions to impose
a particular sentence before giving Johnson the opportunity to speak. United
States v. Pittsinger, 874 F.3d 446, 452 (5th Cir. 2017). It is not clear or obvious
that the district court’s language constituted “a definitive and conclusive
statement regarding the sentence to be imposed.” Id. at 453.
Johnson next maintains that the district court failed to consider the
extent of the deviation from the applicable guidelines range in sentencing him
to an above-guidelines sentence of imprisonment after ascertaining the correct
range.

Although Johnson concedes that a court which initially chooses a

sentence above an 18-month maximum range probably would not sentence
beneath a 12-month maximum on the same facts, he argues that it does not
follow that the ultimate sentence should necessarily be the same.
Assuming arguendo that the district court committed a clear or obvious
error, Johnson still fails to show that such an error affected his substantial
rights. The Supreme Court has said that “[i]n most cases a defendant who has
shown that the district court mistakenly deemed applicable an incorrect,

2

Case: 19-10517

Document: 00515321148

Page: 3

Date Filed: 02/26/2020

No. 19-10517
higher Guidelines range has demonstrated a reasonable probability of a
different outcome.” Molina-Martinez v. United States, 136 S. Ct. 1338, 1346
(2016). Here, however, the district court considered the correct guidelines
range before imposing Johnson’s sentence and had chosen its initial sentence
with reference to the statutory limits on the revocation sentence and not the
applicable guidelines range.

In sentencing Johnson, the district court

emphasized his criminal history and “his ongoing activity in assaulting a
family member” as opposed to the sentencing range. Johnson has not pointed
to anything in the record that tends to show that the outcome would have been
different had the district court explicitly considered the extent of the deviation.
As such, he has failed to show that the district court plainly erred.
sentence is AFFIRMED.

3

His

APPENDIX B

Case 4:13-cr-00233-MAC-CAN Document 923 Filed 01/12/16 Page 1 of 6 PageID #: 3413
Case 4:18-cr-00117-A Document 2 Filed 05/22/18 Page 24 of 29 PageID 27

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS SHERMAN DIVISION

§
§
§
§
§
§
§

UNITED STATES OF AMERICA
v.
TRAVON NIKEITH JOHNSON

JUDGMENT IN A CRIMINAL CASE

Case Number: 4:13-CR-00233-MAC-DDB(15)
USM Number: 22281-078
Ronald Wayne Uselton
Defendant’s Attorney

THE DEFENDANT:
☐ pleaded guilty to count(s)
pleaded guilty to count(s) before a U.S. Magistrate

☒ Judge, which was accepted by the court.
☐
☐

1 of the Indictment

pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not
guilty

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense

Offense Ended

Count

18:1349.F Attempt and Conspiracy To Commit Bank Fraud; 18:2 Aiding and Abetting

09/11/2013

1

The defendant is sentenced as provided in pages 2 through 6 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

☐ The defendant has been found not guilty on count(s)
☐ Count(s) ☐ is ☐ are dismissed on the motion of the United States
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

January 5, 2016
Date of Imposition of Judgment

Signature of Judge

MARCIA CRONE
UNITED STATES DISTRICT JUDGE
Name and Title of Judge

Hello This is a Test

1/11/16
Date

2/15/05

19-10517.32

Case 4:13-cr-00233-MAC-CAN Document 923 Filed 01/12/16 Page 2 of 6 PageID #: 3414
Case 4:18-cr-00117-A Document 2 Filed 05/22/18 Page 25 of 29 PageID 28

AO 245B (Rev. TXN 10/12) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 2 of 6

TRAVON NIKEITH JOHNSON
4:13-CR-00233-MAC-DDB(15)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:
14 MONTHS.

☒ The court makes the following recommendations to the Bureau of Prisons:
The Court recommends that the defendant receive appropriate drug treatment while imprisoned and that
defendant be incarcerated in FCI, Fort Worth, TX, if available and defendant is eligible.

☒ The defendant is remanded to the custody of the United States Marshal.
☐ The defendant shall surrender to the United States Marshal for this district:
☐ at

☐

a.m.

☐

p.m.

on

☐ as notified by the United States Marshal.
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
☐ before 2 p.m. on
☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on

at

to

, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

19-10517.33

Case 4:13-cr-00233-MAC-CAN Document 923 Filed 01/12/16 Page 3 of 6 PageID #: 3415
Case 4:18-cr-00117-A Document 2 Filed 05/22/18 Page 26 of 29 PageID 29

AO 245B (Rev. TXN 10/12) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 3 of 6

TRAVON NIKEITH JOHNSON
4:13-CR-00233-MAC-DDB(15)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: 5 YEARS.
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release
from the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a controlled
substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least two periodic drug
tests thereafter, as determined by the court.

☐ The above drug testing condition is suspended, based on the court’s determination that the defendant poses a low risk of future
substance abuse. (Check, if applicable.)
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon.

(Check, if applicable.)
☒
☒ The defendant shall cooperate in the collection of DNA as directed by the probation officer. (Check, if applicable.)
☐ The defendant shall comply with the requirements of the Sex Offender Registration and Notification Act (42 U.S.C. § 16901, et

☐

seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which he or she
resides, works, is a student, or was convicted of a qualifying offense. (Check, if applicable.)
The defendant shall participate in an approved program for domestic violence. (Check, if applicable.)

If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance with
the Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.

the defendant shall not leave the judicial district without the permission of the court or probation officer;
the defendant shall report to the probation officer in a manner and frequency directed by the court or probation officer;
the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
the defendant shall support his or her dependents and meet other family responsibilities;
the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
acceptable reasons;
the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any controlled
substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
the defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted of a
felony, unless granted permission to do so by the probation officer;
the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view of the probation officer;
the defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement officer;
the defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and
as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s criminal
record or personal history or characteristics and shall permit the probation officer to make such notifications and to confirm the defendant’s
compliance with such notification requirement.

19-10517.34

Case 4:13-cr-00233-MAC-CAN Document 923 Filed 01/12/16 Page 4 of 6 PageID #: 3416
Case 4:18-cr-00117-A Document 2 Filed 05/22/18 Page 27 of 29 PageID 30

AO 245B (Rev. TXN 10/12) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 4 of 6

TRAVON NIKEITH JOHNSON
4:13-CR-00233-MAC-DDB(15)

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall provide probation officer with access to any requested financial
information for purposes of monitoring fine/restitution payments and employment.
The defendant shall not incur new credit charges or open additional lines of credit
without the approval of the probation officer unless payment of any financial obligation
ordered by the Court has been paid in full.
The defendant shall not participate in any form of gambling unless payment of any
financial obligation ordered by the Court has been paid in full.
The defendant shall participate in a program of testing and treatment for drug abuse,
under the guidance and direction of the U.S. Probation Office, until such time as the
defendant is released from the program by the probation officer. The defendant shall
pay any cost associated with treatment and testing.

19-10517.35

Case 4:13-cr-00233-MAC-CAN Document 923 Filed 01/12/16 Page 5 of 6 PageID #: 3417
Case 4:18-cr-00117-A Document 2 Filed 05/22/18 Page 28 of 29 PageID 31

AO 245B (Rev. TXN 10/12) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 5 of 6

TRAVON NIKEITH JOHNSON
4:13-CR-00233-MAC-DDB(15)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Fine
Assessment
$100.00
$500.00
TOTALS

Restitution
$6,269.50

☐ The determination of restitution is deferred until

An Amended Judgment in a Criminal Case (AO245C) will be entered
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18
U.S.C. § 3664(i), all nonfederal victims must be paid before the United States is paid.

Restitution of $6,269.50, jointly and severally with co-defendant Arthur Freddie-Lee Allen (4:13-cr-00104-002), to:
Bank of America

☐ Restitution amount ordered pursuant to plea agreement $
☐ The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
☒

the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☒ the interest requirement is waived for the
☐ fine
☒ restitution

☐ the interest requirement for the

☐ fine

☐ restitution is modified as follows:

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

19-10517.36

Case 4:13-cr-00233-MAC-CAN Document 923 Filed 01/12/16 Page 6 of 6 PageID #: 3418
Case 4:18-cr-00117-A Document 2 Filed 05/22/18 Page 29 of 29 PageID 32

AO 245B (Rev. TXN 10/12) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 6 of 6

TRAVON NIKEITH JOHNSON
4:13-CR-00233-MAC-DDB(15)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

☒ Lump sum payments of $ 6,869.50 due immediately, balance due
☐ not later than
☒ in accordance

, or

☐

C,

☐

D,

B

☐ Payment to begin immediately (may be combined with

C

☐ Payment in equal
☐ Payment in equal

E, or

☒

F below; or

☐

C,

☐

D, or

(e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence

D

☐

F below); or

over a period of

(e.g., 30 or 60 days) after the date of this judgment; or

(e.g., weekly, monthly, quarterly) installments of $

(e.g., months or years), to commence
to a term of supervision; or

☐

over a period of

(e.g., 30 or 60 days) after release from imprisonment

E

☐ Payment during the term of supervised release will commence within

F

☒ Special instructions regarding the payment of criminal monetary penalties:

(e.g., 30 or 60 days) after release
from imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that
time; or

It is ordered that the Defendant shall pay to the United States a special assessment of $100.00 for Count 1 which
shall be due immediately. Said special assessment shall be paid to the Clerk, U.S. District Court. Any restitution
amount that remains unpaid when the defendant's supervision commences is to be paid on a monthly basis at a rate of at
least 10% of the defendant's gross income, to be changed during supervision, if needed, based on the defendant's changed
circumstances, pursuant to 18 U.S.C. § 3572(d)(3). If the defendant receives an inheritance, any settlements (including
divorce settlement and personal injury settlement), gifts, tax refunds, bonuses, lawsuit awards, and any other receipt of
money (to include, but not be limited to, gambling proceeds, lottery winnings, and money found or discovered) the
defendant must, within 5 days of receipt, apply 100% of the value of such resources to any restitution or fine still owed.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to: U.S. District Court. Fine & Restitution. 1910 E SE Loop 323 No 287. Tyler, TX 75701
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
 Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.
Restitution of $6,269.50, jointly and severally with co-defendant Arthur Freddie-Lee Allen (4:13-cr-00104-002), to:
Bank of America

☐

Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same loss
that gave rise to defendant's restitution obligation.

☐ The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

19-10517.37

APPENDIX C

Case 4:18-cr-00117-A Document 24 Filed 05/02/19

Page 1 of 6 PageID 130

Case 4:18-cr-00117-A Document 24 Filed 05/02/19

Page 2 of 6 PageID 131

Case 4:18-cr-00117-A Document 24 Filed 05/02/19

Page 3 of 6 PageID 132

Case 4:18-cr-00117-A Document 24 Filed 05/02/19

Page 4 of 6 PageID 133

Case 4:18-cr-00117-A Document 24 Filed 05/02/19

Page 5 of 6 PageID 134

Case 4:18-cr-00117-A Document 24 Filed 05/02/19

Page 6 of 6 PageID 135

